                    August 29, 2000

                    PATRICK R. DONAHOE
                    SENIOR VICE PRESIDENT, HUMAN RESOURCES

                    SUBJECT:	 Management Reassignment Actions
                              (Report Number LB-MA-00-001)

                    This management advisory presents the results of our
                    review of management reassignment actions (Project
                    Number 99EA008LR000). The Office of Inspector General
                    (OIG) initiated a review based on hotline complaints and
                    congressional inquiries alleging that Postal Service
                    managers were reassigned when they failed to maintain
                    good employee relations instead of addressing the situation
                    through discipline or other corrective action. This
                    management advisory report presents the results of our
                    review.

Results in Brief	   We found that, in two of the eight cases reviewed, the
                    Postal Service did not discipline managers who failed to
                    maintain good employee relations. Instead, Postal Service
                    officials reassigned the managers. In the remaining six
                    cases we could not determine whether the reassignments
                    were to prevent issuing discipline, because Postal Service
                    officials either did not conduct climate studies or did not
                    complete formal investigations into the situations.

                    While our review was limited, we believe the two cases
                    illustrate the use of reassignments as a substitute for
                    disciplinary actions or other corrective measures.
                    Accordingly, we suggest the senior vice president, Human
                    Resources, ensure reassignments meet the standards in
                    Postal Service guidance, and utilize tools such as climate
                    assessments and formal investigations to develop and
                    support corrective measures. Management agreed with our
                    suggestions and the actions planned addressed the issues.
                    Management's comments are included, in their entirety, in
                    the appendix.
Management Reassignment Actions                                                 LB-MA-00-001




 Background                 The Employee and Labor Relations Manual,
                            Subchapter 650, identifies disciplinary action procedures for
                            non-bargaining employees. This subchapter states that
                            misconduct requires corrective actions ranging from
                            counseling to removal, depending on the seriousness of the
                            behavior.

 Supervisory                The practice of reassigning supervisors instead of taking
 Reassignment               disciplinary action was discouraged in two policy letters
                            dated May 4, 1994, and November 3, 1999. The Postal
                            Service acknowledged that arbitrary or punitive involuntary
                            reassignments were inappropriate and should not be used
                            as a substitute for discipline or other processes more
                            appropriate to the circumstances.

 Objective, Scope, and      Our objective was to determine whether the Postal Service
 Methodology                disciplined managers who consistently failed to maintain
                            good employee relations or reassigned the managers
                            instead of issuing discipline or other corrective actions.

                            We judgmentally selected eight cases where the Postal
                            Service appeared to have reassigned managers to different
                            facilities to prevent having to correct their behavior by using
                            discipline.

                            We obtained documents from the Alabama, Central and
                            South Florida, Atlanta, Dallas, and Fort Worth Districts. We
                            interviewed personnel from the following offices at Postal
                            Service Headquarters: Workplace Environment
                            Improvement, Employee Assistance, and Safety and Risk
                            Management. We also reviewed Postal Service policies
                            and procedures relating to disciplinary actions against
                            supervisors and managers.

                            This review was conducted from January 1999 through
                            August 2000 in accordance with the President’s Council on
                            Integrity and Efficiency, Quality Standards for Inspections.
                            We discussed our conclusions and observations with
                            appropriate management officials and included their
                            comments, where appropriate.




                                             2
Management Reassignment Actions 	                                                                         LB-MA-00-001



    Reassignment of	                 We found that, in two of the eight cases reviewed, the
    Managers 	                       Postal Service did not discipline managers who failed to
                                     maintain good employee relations. Instead, Postal Service
                                     officials reassigned the managers. In the remaining six
                                     cases we could not determine whether the reassignments
                                     were to prevent issuing discipline, because Postal Service
                                     officials either did not conduct climate studies or did not
                                     complete formal investigations into the instances described
                                     in these cases.

                                     The following discusses the circumstances of the two cases
                                     where managers failed to maintain good employee relations
                                     and were not disciplined.

                                     •	 District officials requested the reassignment of a
                                        postmaster who smoked in the office, did not allow
                                        employees to use the phones, and put his fist in
                                        employees’ faces. The employee and workplace
                                        intervention analyst performed two climate assessments
                                        at the post office on March 10, 1998, and June 2, 1998.
                                        Instead of issuing discipline to the postmaster or
                                        providing training, the district manager approved the
                                        reassignment of the postmaster to another post office on
                                        June 11, 1998.

                                     •	 Postal officials reassigned another supervisor who
                                        lacked people skills, continually created a tense and
                                        stressful work environment, and was accused of sexual
                                        harassment. Postal officials conducted a climate
                                        assessment in May 1998 after reassigning the
                                        supervisor from a processing and distribution facility to a
                                        post office.1 The climate study revealed that the
                                        supervisor talked to employees in a “dehumanizing and
                                        humiliating” manner. In addition, the employees
                                        described the climate at the processing and distribution
                                        facility as a “concentration camp” under the supervisor’s
                                        leadership. However, we found no evidence that
                                        management officials issued discipline or provided
                                        training to the supervisor, who according to
                                        documentation continued to create a tense and stressful
                                        working environment at the post office. District officials
                                        conducted another climate assessment in April 1999 and

1
 The supervisor officially requested a lateral transfer from supervisor of distribution operations to supervisor of
customer services.




                                                            3
Management Reassignment Actions 	                                                   LB-MA-00-001



                                    found that the supervisor “governed by intimidation.”
                                    District officials suggested that the supervisor attend
                                    conflict resolution training.

                             Although our sample was limited in size, we believe the two
                             cases presented are persuasive and illustrate where
                             reassignments were used as a substitute for disciplinary
                             actions or other corrective measures.

 Suggestion                  We offer the following suggestions:

                             The senior vice president, Human Resources should:

                             1. Ensure that reassignments meet the standards identified
                                in Postal Service guidance and are not used as a
                                substitute for disciplinary actions or other corrective
                                measures.

 Management’s                The senior vice president, Human Resources agreed that all
 Comments                    reassignments should meet the Postal Service guidelines as
                             contained in the Employee and Labor Relations Manual.
                             The vice president stated that every decision as to
                             reassignment or discipline is based upon review of the
                             individual situation. Management does not as a matter of
                             policy reassign a manager in lieu of taking appropriate
                             disciplinary action. The vice president agreed to take the
                             necessary steps to remind senior management of the
                             reassignment policy.

 Suggestion                  2.	 Utilize tools such as climate assessments and formal
                                 investigations to develop and support corrective
                                 measures.

 Management’s                The senior vice president, Human Resources agreed that
 Comments                    the Postal Service utilized the appropriate tools, such as
                             climate surveys and formal investigations to look into
                             management practices and behavior. Based upon the
                             findings from these activities, appropriate corrective actions
                             are taken when warranted.

 Evaluation of               Management’s actions taken and planned are responsive to 

 Management’s                our suggestions. 

 Comments 





                                                  4
Management Reassignment Actions 	                                           LB-MA-00-001




                             We appreciated the cooperation and courtesies provided by
                             your staff during the review. If you have any questions,
                             please contact Joyce Hansen, director, Labor Management
                             (Rosslyn) at (703) 248-2170 or me at (703) 248-2300.



                             Debra D. Pettitt
                             Acting Assistant Inspector General
                              for Oversight and Business Evaluation

                             cc: 	 Yvonne D. Maguire
                                   Anthony J. Vegliante
                                   Robert T. Davis
                                   George L. Lopez
                                   Robin M. Stewart
                                   Martha J. Kyle
                                   John R. Gunnels




                                              5
Management Reassignment Actions                         LB-MA-00-001



                      APPENDIX. MANAGEMENT'S COMMENTS




                                     6
Management Reassignment Actions       LB-MA-00-001




 Major Contributors to
 This Report




                                  7
